No. 19-963

In the Supreme Court of the United States
HENRY SCHEIN, INC., PETITIONER
v.
ARCHER AND WHITE SALES, INC.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

REPLY BRIEF FOR THE PETITIONER

PAUL F. SCHUSTER
CYNTHIA KEELY TIMMS
LOCKE LORD LLP
2200 Ross Avenue,
Suite 2800
Dallas, TX 75201
RICHARD C. GODFREY
KIRKLAND & ELLIS LLP
300 North LaSalle Street
Chicago, IL 60654

KANNON K. SHANMUGAM
Counsel of Record
STACIE M. FAHSEL
WILLIAM T. MARKS
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com
ETHAN R. MEREL
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
1285 Avenue of the Americas
New York, NY 10019

TABLE OF CONTENTS

Page
A. The decision below deepens a conflict among the
federal and state appellate courts.......................................... 2
B. The question presented is an important and
recurring one that warrants the Court’s review
in this case ................................................................................. 8
TABLE OF AUTHORITIES

Cases:
Ally Align Health, Inc. v. Signature Advantage, LLC,
574 S.W.3d 753 (Ky. 2019) ................................................. 4
Brittania-U Nigeria, Ltd. v. Chevron USA, Inc.,
866 F.3d 709 (5th Cir. 2017) ............................................. 11
James & Jackson, LLC v. Willie Gary, LLC,
906 A.2d 76 (Del. 2006) ....................................................... 3
Mitsubishi Motors Corp. v. Soler Chrysler-Plymouth,
Inc., 473 U.S. 614 (1985) ..................................................... 5
Mohamed v. Uber Technologies, Inc.,
848 F.3d 1201 (9th Cir. 2016) ......................................... 6, 7
NASDAQ OMX Group, Inc. v. UBS Securities, LLC,
770 F.3d 1010 (2d Cir. 2014) .............................................. 4
Oracle America, Inc. v. Myriad Group A.G.,
724 F.3d 1069 (9th Cir. 2013) ..................................... 4, 5, 7

(I)

In the Supreme Court of the United States
No. 19-963
HENRY SCHEIN, INC., PETITIONER
v.
ARCHER AND WHITE SALES, INC.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

REPLY BRIEF FOR THE PETITIONER

This case presents an entrenched and acknowledged
conflict on the vitally important question whether a carveout provision in an arbitration agreement negates an otherwise clear and unmistakable delegation of arbitrability
to an arbitrator. The court of appeals’ resolution of that
question defies the law as well as common sense, flouting
the presumption in favor of arbitration and rendering the
delegation a self-defeating nullity. It is thus no surprise
that the Court issued a stay pending the disposition of this
petition—reflecting an assessment of the likelihood both
that certiorari will be granted and that the judgment below will be reversed.
In its brief in opposition, respondent kicks up a cloud
of dust. And if the Court has a feeling of déjà vu, it is for
good reason. The purported vehicle problems respondent
(1)

2
identifies are materially identical to those it raised in unsuccessfully opposing petitioner’s earlier petition for certiorari in this case. As was true then, the presence of
other questions in the case is no basis for denying review
on the question that the court of appeals actually addressed and that the petition presents. And as to the conflict on that question, respondent merely rehashes the arguments it made in unsuccessfully opposing petitioner’s
stay application, seeking to reframe the question so as to
eliminate the central legal issue in dispute.
Betraying a hostility to arbitration, the court of appeals has now twice refused to give effect to the obvious
intent behind the agreements: to have the arbitrator decide disputes over arbitrability. On the last occasion, the
Court granted certiorari and unanimously vacated the
court of appeals’ decision. The same outcome is warranted on this occasion. The petition for a writ of certiorari should be granted.
A. The Decision Below Deepens A Conflict Among The
Federal And State Appellate Courts

Respondent first contends (Br. in Opp. 10-18) that
there is no conflict on the question presented. That is a
fanciful contention, given that the lower courts have expressly acknowledged the conflict. Respondent can wish
away the conflict only by rewriting the question presented
and then ignoring what the cases actually say. There can
be no serious dispute that this case presents a conflict that
warrants the Court’s review.
1. Respondent reformulates the question presented
as follows: “[w]hether an arbitration agreement that
makes no mention of delegation ‘clearly and unmistakably’ delegates arbitrability with respect to actions that the
agreement expressly carves out from both arbitration and
any arguable delegation.” Br. in Opp. i. Respondent

3
thereby strips the legal substance from the question presented in the petition. That question concerns the effect
of a carve-out provision (i.e., a provision allowing the parties to litigate certain claims in court) on the determination of whether the parties agreed to arbitrate questions
of arbitrability, including the question whether a dispute
involves a claim subject to arbitration. See Pet. i. That
question is entirely legal in nature.
In reformulating the question presented, however, respondent simply injects its preferred legal answer: that
the carve-out in the agreements negates any delegation.
Indeed, respondent appears to assume that no valid delegation is present at all (as respondent contends in its
cross-petition). Effectively, then, respondent reframes
the question presented as whether, under respondent’s
view of the law, the particular agreements at issue require
the arbitrator to resolve the parties’ dispute over arbitrability.
2. Only by excising the legal question from the case
can respondent argue that “[c]ourts have reached different conclusions in different cases because they were evaluating different contractual language.” Br. in Opp. 9. Respondent made a materially identical argument in unsuccessfully opposing petitioner’s application for a stay. See
19A766 Opp. 11-16. But on the question actually presented in the petition, the federal and state appellate
courts are sharply and intractably divided.
a. Respondent does not dispute that the Delaware
and Kentucky Supreme Courts have adopted conflicting
legal rules concerning the effect of a carve-out provision
on an otherwise clear and unmistakable delegation. See
Br. in Opp. 12-13, 14. In James & Jackson, LLC v. Willie
Gary, LLC, 906 A.2d 76, 81 (2006), the Delaware Supreme
Court held that, where an arbitration agreement does not

4
“generally refer all controversies to arbitration,” the
agreement does not clearly and unmistakably delegate
questions of arbitrability to an arbitrator. But in Ally
Align Health, Inc. v. Signature Advantage, LLC, 574
S.W.3d 753, 757-758 (2019), the Kentucky Supreme Court
held that “[a] carve-out provision * * * does not negate
[a] clear and unmistakable [delegation],” and it criticized
the Delaware Supreme Court for “ma[king] the mistake
of conflating the questions” of “what claims get arbitrated” and “who decides what claims get arbitrated.”
b. While respondent attempts to recharacterize the
other cases in the conflict, they too have adopted irreconcilable legal rules. Both the Fifth Circuit below and the
Second Circuit in NASDAQ OMX Group, Inc. v. UBS Securities, LLC, 770 F.3d 1010 (2014), held that a court must
determine whether a claim falls within a carve-out provision, despite an agreement’s incorporation of arbitration
rules delegating questions of arbitrability to the arbitrator, on the theory that the rules apply only to claims outside the carve-out. See Pet. App. 11a; NASDAQ OMX
Group, 770 F.3d at 1032. That is just another way of saying that a carve-out provision negates an otherwise enforceable delegation.
By contrast, in Oracle America, Inc. v. Myriad Group
A.G., 724 F.3d 1069 (2013), the Ninth Circuit announced a
contrary legal rule, concluding that, “when a tribunal decides that a claim falls within the scope of a carve-out provision, it necessarily decides arbitrability.” Id. at 1076.
And in refusing to follow the Delaware Supreme Court,
the Ninth Circuit did not simply disagree about the
“breadth of the carve-out” at issue, as respondent asserts
(Br. in Opp. 14 n.8); it rejected the Delaware Supreme
Court’s analysis altogether. See 724 F.3d at 1076-1077.

5
Respondent suggests (Br. in Opp. 11) that the Ninth
Circuit’s reasoning turned on the “circular” nature of the
carve-out provision at issue. But the same could be said
about the provision here or any other carve-out provision:
only claims that otherwise fall within the scope of an arbitration agreement can be carved out. For that reason, the
Ninth Circuit’s key insight in Oracle—that a contrary rule
like respondent’s “conflates the scope of the arbitration
clause, i.e., which claims fall within the carve-out provision, with the question of who decides arbitrability,” 724
F.3d at 1076—applies well beyond the facts of that case.
The resulting conflict warrants the Court’s review.
3. Respondent alternatively contends that, in light of
petitioner’s position on the merits, “there is no disagreement over the question presented” in the petition. Br. in
Opp. 15. That is a perplexing claim.
a. Petitioner’s position on the merits is straightforward and rooted in the rule that “any doubts concerning
the scope of arbitrable issues should be resolved in favor
of arbitration.” Mitsubishi Motors Corp. v. Soler Chrysler-Plymouth, Inc., 473 U.S. 614, 626 (1985) (citation omitted). As petitioner has explained, parties who have
adopted a delegation provision will only rarely intend to
exempt claims from the delegation. An exemption of the
same claims both from the delegation and from the underlying obligation to arbitrate would defeat the very point of
the delegation: to allow the arbitrator, not the court, to
determine whether a particular claim is subject to arbitration in the first place. Accordingly, where the parties have
validly delegated questions of arbitrability to an arbitrator, limitations on the scope of an arbitration agreement
do not act on the delegation absent a clear indication to
that effect. See Pet. 20-22.

6
Application of petitioner’s proposed legal rule to the
facts here illustrates the disagreement between the parties. The arbitration provision at issue provides that
“[a]ny dispute arising under or related to this [a]greement
(except for actions seeking injunctive relief * * *) shall
be resolved by binding arbitration in accordance with the
arbitration rules of the American Arbitration Association.” 17-1272 J.A. 58.
Petitioner contends that, because the carve-out provision does not expressly state that it operates on the delegation, the general presumption in favor of arbitration applies and the delegation should be given plenary effect.
Respondent, by contrast, contends that “[p]etitioner has
not carried th[e] burden” of showing that the delegation
applies because, in its view, the carve-out provision exempts actions seeking injunctive relief both from the obligation to arbitrate and from the delegation. Br. in Opp.
24. The choice of the legal rule regarding the effect of a
carve-out provision is thus outcome-dispositive here.
b. The best evidence that the parties are in disagreement over the actual question presented? Respondent devotes pages and pages of its brief to defending the court
of appeals’ decision and criticizing petitioner’s proposed
legal rule. See Br. in Opp. 15-17, 24-30. Respondent’s various arguments lack merit.
i. Respondent derides petitioner’s proposed rule on
the ground that no lower court has adopted it. See Br. in
Opp. 28. Of course, this Court would not be limited at the
merits stage to choosing solely between the positions
adopted by the lower courts. But even if it were, respondent is mistaken: the Ninth Circuit has taken petitioner’s
proposed approach, as illustrated by its recent decision in
Mohamed v. Uber Technologies, Inc., 848 F.3d 1201
(2016).

7
As explained above, in Oracle, the Ninth Circuit considered an arbitration agreement that contained a valid
delegation in addition to a carve-out provision exempting
certain claims from arbitration. See p. 4. In Mohamed,
the agreement likewise contained a valid delegation; critically, it also contained a carve-out provision specifically
requiring a court to determine the validity of the agreement’s class-action waiver. See 848 F.3d at 1208-1209.
The Ninth Circuit decided for itself whether the class-action waiver was valid. See id. at 1212-1214.
The Ninth Circuit’s decisions in Oracle and Mohamed
demonstrate the application of petitioner’s proposed rule.
In both cases, the arbitration agreements contained sufficient evidence of a valid delegation. A carve-out provision
that merely permits the parties to litigate the merits of a
particular claim in court—as in Oracle—does not clearly
evince an intent to have the court decide the question
whether such a claim is present. By contrast, a provision
exempting a particular question of arbitrability from arbitration—as in Mohamed—necessarily acts on the delegation. Between Oracle and Mohamed, therefore, the
Ninth Circuit has adopted the position that a carve-out
provision must clearly operate on the delegation in order
to negate it.
ii. Respondent also contends that petitioner presented its proposed legal rule “for the first time” during
briefing in this Court on petitioner’s stay motion. See Br.
in Opp. 16. Even if that somehow mattered, respondent’s
assertion is plainly wrong: in fact, petitioner espoused the
same approach when this case was previously before the
Court. In its briefing, petitioner recognized that, “[i]n
theory if not in practice, parties could choose to craft an
arbitration provision that divides responsibility for arbitrability between the arbitrator and the court.” 17-1272

8
Reply Br. 13 n.2. And at oral argument, counsel for petitioner contended that the “interpretive rule that requires
clear and unmistakable evidence” of a delegation “falls out
of the equation” “once you have that evidence.” 17-1272
Tr. 18. Petitioner’s proposed rule has thus been consistent; respondent simply does not agree with it.
iii. Respondent additionally offers a variety of substantive criticisms of petitioner’s proposed rule. See Br.
in Opp. 28-30. But each of those criticisms has a simple
response. Petitioner is not seeking to “upend” the test requiring clear and unmistakable evidence of a delegation,
as its question presented is premised on satisfaction of
that test, see id. at 28-29; petitioner’s proposed rule is consistent with this Court’s interpretation of arbitration
agreements, including the interpretive presumptions the
Court has adopted, see id. at 29; and the question of the
existence of a delegation is antecedent to the question of
the effect of a carve-out provision, because parties ordinarily adopt delegation provisions precisely to allow arbitrators to decide whether a claim falls inside or outside
the scope of an arbitration agreement, see id. at 29-30.
In all events, what matters for present purposes is
that respondent obviously intends to join battle with petitioner on the merits if the Court grants certiorari—giving
the lie to the notion that this case does not present a question warranting plenary review. In light of the substantial
conflict in the lower courts on the question presented, the
petition for certiorari should be granted.
B. The Question Presented Is An Important And Recurring One That Warrants The Court’s Review In This
Case

1. Respondent does not dispute that the question presented is frequently recurring or that questions involving

9
commercial arbitration are of substantial legal and practical importance. See Pet. 23-26. Instead, respondent argues that this case does not present a “legal question[]”
because it involves the interpretation of a particular arbitration agreement. Br. in Opp. 17. As discussed above,
however, that attempt to explain away the question presented is simply unavailing. See pp. 2-3.
2. In the alternative, respondent contends (Br. in
Opp. 18-23) that this case is a poor vehicle in which to decide the question presented. But the answer to that question was the sole ground for the court of appeals’ decision,
and a contrary answer would require vacatur.
Respondent’s primary objection is that the case also
presents two other questions on which it has cross-petitioned: namely, questions concerning the incorporation of
arbitration rules and the doctrine of equitable estoppel.
See Br. in Opp. 18-23; 19-1080 Pet. i. Respondent tried a
virtually identical maneuver the last time petitioner
sought certiorari in this case: it argued that the case was
an “unsuitable vehicle” because of the presence of those
questions. See 17-1272 Br. in Opp. 20-21, 24 n.17. But that
was no impediment to the Court’s review then, and it is no
impediment now.
a. Respondent contends that petitioner’s “entire argument hinges” on the resolution of the incorporation
question presented in respondent’s cross-petition. Br. in
Opp. 21. Not so. The petition proceeds on the assumption
that the agreements contain a valid delegation, see Pet. i,
just like the petition the Court previously granted in this
case. See 139 S. Ct. 524 (2019). In any event, respondent’s
argument that the express incorporation of arbitration
rules does not amount to a clear and unmistakable delegation lacks merit. As explained in the response to respondent’s cross-petition, the courts of appeals, including

10
the court below, have uniformly (and correctly) concluded
just the opposite. See 19-1080 Br. in Opp. 7-13.
Respondent asserts that “it makes little sense to say
that respondent intended the [incorporated] [r]ules to apply to a dispute that is expressly excluded from arbitration.” Br. in Opp. 21. But that assertion answers the very
arbitrability question that, in petitioner’s view, the arbitrator should be permitted to decide: whether the dispute
is excluded from arbitration. Respondent’s assertion conflates the question presented (who gets to decide arbitrability) with the merits of the arbitrability inquiry (whether
its claims are subject to arbitration).
b. Respondent next contends that, “[a]ssuming there
was delegation,” petitioner “must face” that it is a nonsignatory to the arbitration agreements at issue. Br. in
Opp. 21. Respondent further suggests that petitioner
cannot rely on the doctrine of equitable estoppel because
respondent’s other manufacturing agreements did not require arbitration. See id. at 22-23. But those issues are
not new to the case. The court of appeals has twice declined to resolve the equitable-estoppel question, including most recently on remand from this Court. See 19-1080
Br. in Opp. 14-15. Although respondent insinuates (incorrectly) that the question is affected by its recent settlement with one of the other defendants, respondent seemingly concedes that the Court need not address the equitable-estoppel question now. See Br. in Opp. 3.* Consistent with its ordinary practice, the Court can instead
Petitioner has consistently argued that it can invoke the manufacturing agreements because respondent’s claims rely on those agreements and because respondent alleges concerted conduct between petitioner and the signatory manufacturers. See, e.g., Pet. C.A. Br. 3538. Those arguments do not depend on a particular manufacturer being a party to the case.
*

11
leave that question for the court of appeals to address in
the first instance in the event of further proceedings.
As with the incorporation question, moreover, respondent’s real beef is with the law of the court of appeals.
Despite conceding that “[i]n theory” a non-signatory may
“be able to enforce an arbitration agreement,” respondent
portrays the non-signatory question as an “open” one and
argues that petitioner is not entitled to invoke the agreement in this case. Br. in Opp. 21-22. But the court of appeals recently adopted the majority rule that a delegation
of questions of arbitrability requires the arbitrator to decide whether a non-signatory can compel arbitration. See
Brittania-U Nigeria, Ltd. v. Chevron USA, Inc., 866 F.3d
709, 715 (5th Cir. 2017). That question does not independently warrant the Court’s review, see 19-1080 Br. in
Opp. 13-16, and respondent’s disagreement with the court
of appeals’ apparent position on that question hardly renders this case an unsuitable vehicle in which to address
the question that the court of appeals actually considered
and decided.
In short, respondent fails to identify any valid obstacle
to the Court’s review. This case cleanly and squarely presents the question whether a carve-out provision in an arbitration agreement negates an otherwise clear and unmistakable delegation of arbitrability to an arbitrator.
The court of appeals badly erred, and once again betrayed
its hostility to arbitration, when it held that a carve-out
provision defeated an otherwise valid delegation. The
Court should not allow that decision, on such an important
question of arbitration law, to stand. The Court should
grant review and once again vacate the court of appeals’
judgment refusing to compel arbitration.

12
*

*

*

*

*

The petition for a writ of certiorari should be granted.
Respectfully submitted.
PAUL F. SCHUSTER
CYNTHIA KEELY TIMMS
LOCKE LORD LLP
2200 Ross Avenue,
Suite 2800
Dallas, TX 75201
RICHARD C. GODFREY
KIRKLAND & ELLIS LLP
300 North LaSalle Street
Chicago, IL 60654

MAY 2020

KANNON K. SHANMUGAM
STACIE M. FAHSEL
WILLIAM T. MARKS
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com
ETHAN R. MEREL
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
1285 Avenue of the Americas
New York, NY 10019

